                                                NATIONAL SCIENCE FOUNDATION
                                                       OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS
                                                  '




                                          CLOSEOUT MEMORANDUM

    Case Number: A06090039                                                     1        Page 1 o f 2


            A university' notified us it had received a n allegation of data falsification and had
            conducted an Inquiry. Specifically, a researcher thought the subject2 had not done
            enough to account for noise artifacts that mimic the claimed results, and therefore
            believed the results were intentionally misreported in two published papers. He
            notified the subject's university, which investigated the allegation. In accordance with

~           NSF policy, the university notified us the Inquiry committee concluded a n
            Investigation into the initial allegation was warranted, and the university agreed.
            The Investigation committee (IC) reviewed the Inquiry Report, the subject's response to
            that report, two papers published by the subject, notebooks, data, and the subject's
            analyses prior to publication of the papers. It found two significant and intertwined
            problems with the conclusions reported in the papers. Specifically, the papers failed to
            disclose the extent noise can generate artifacts that resemble the actual results; and
            the conclusions were not supported by sufficient statistical proof that the claimed
            results were not noise artifacts. After reviewing both the papers and the supporting
            data, the IC requested the subject conduct a more rigorous statistical analysis. The IC
            then asked a consultant in statistical methodologies to review the subject's approach,
            data, and conclusions.
            The consultant's report identified nine major concerns related to the study design,
            statistical analyses, and the interpretation of the results. These concerns included an
            insufficient description of experimental design and specific procedures, inappropriate
            measurements, and inappropriate statistical methodology. The consultant concluded
            the subject's design and analysis of his experiment were not well developed from a
            statistical point of view, and thus, the subject's results should be considered
            preliminary and exploratory in nature. The IC concluded six of the nine specific points
            raised doubts about the subject's conclusions.
            The IC concluded a preponderance of evidence supported a conclusion that there was
            insufficient statistical basis for the subject's conclusions in his papers, but the subject
            did not commit research misconduct because he did not recklessly or knowingly publish
            the flawed results. It expressed concern that the two papers remain in the literature
            without any indication of the problems with the findings. It recommended the subject
            take into account the recommendations of the consultant and develop a rigorous
            methodology for statistical analysis of the data. If the reexamination demonstrates one
            or both of the papers need supplementation, correction, or retraction, the subject

                1   (redacted).
                2   (redacted).



    NSF OIG Form 2 (11/02)
                                       NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM                               ,


Case Number: A06-39                                                 11         Page 2 of 2


    should act accordingly. The IC concluded if the subject fails to do so; he would a t that
    point have committed a n act.of research misconduct under NSF policy, because he now
    knows his results are flawed; i.e., he now has a culpable level of intent.
    The adjudicator agreed with the IC and directed the subject to complete additional
    analysis and take any necessary action with regard to his papers. The subject
    completed the additional analysis under the supervision of his department Chair and
    department advisor. He submitted a report and draft manuscript to the Vice President
    who accepted the subject's results as satisfying the adjudicator's decision. The Vice
    President informed the adjudicator, who accepted the subject's work and closed the
    case, with the condition the subject submit his manuscript to a refereed journal.
    We accepted the university's report a s accurate and thorough and agreed with its
    recommended actions. We are satisfied with the subject's additional research and
    concur with the adjudicator that with the publication of the subject's new paper,
    further discussion will become a matter
                                      '
                                            of scientific exchange in the open literature.
    Accordingly, this case is closed.
